                                                             O FFICE OF A UDIT S ERVICES , R EGION IX
                                                                        90 - 7 T H S TREET, S UITE 3-650
                                                                         S AN F RANCISCO , CA 94103
April 13, 2012

Report Number: A-09-12-02010

Mr. James Dover, FACHE
President and Chief Executive Officer
O’Connor Hospital
2105 Forest Avenue
San Jose, CA 95128

Dear Mr. Dover:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Outpatient Billing for Selected Drugs at
O’Connor Hospital. We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact
Iman Zbinden, Senior Auditor, at (619) 557-6131, extension 109, or through email at
Iman.Zbinden@oig.hhs.gov, or contact Alice Norwood, Audit Manager, at (415) 437-8360 or
through email at Alice.Norwood@oig.hhs.gov. Please refer to report number A-09-12-02010 in
all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. James Dover


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




     REVIEW OF MEDICARE
    OUTPATIENT BILLING FOR
      SELECTED DRUGS AT
     O’CONNOR HOSPITAL




                       Daniel R. Levinson
                        Inspector General

                           April 2012
                         A-09-12-02010
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services administers the program.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains detail regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered.

O’Connor Hospital (the Hospital) is an acute-care hospital located in San Jose, California. Based
on data analysis, we reviewed $63,405 in Medicare payments to the Hospital for 11 line items for
injections of selected drugs that the Hospital billed to Medicare during our audit period
(January 1, 2008, through April 30, 2011). These line items consisted of injections for
doxorubicin hydrochloride liposome, rituximab, pemetrexed, cetuximab, and epoetin alfa.

OBJECTIVE

Our objective was to determine whether the Hospital billed Medicare for injections of selected
drugs in accordance with Federal requirements.

SUMMARY OF FINDINGS

For 9 of the 11 line items reviewed, the Hospital did not bill Medicare in accordance with
Federal requirements:

   •   For five line items, the Hospital used the incorrect HCPCS code.

   •   For four line items, the Hospital billed the incorrect number of units of service.

As a result, the Hospital received overpayments totaling $46,355. The Hospital attributed the
overpayments to billing system and clerical errors.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare administrative contractor $46,355 in identified overpayments and

   •   ensure compliance with Medicare billing requirements.



                                                 i
O’CONNOR HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our findings and provided
information on actions that it had taken to address our recommendations. The Hospital’s
comments are included in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Medicare Requirements for Outpatient Claims .............................................1
              Selected Drugs ...............................................................................................1
              O’Connor Hospital .........................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................3

FINDINGS AND RECOMMENDATIONS ......................................................................4

          FEDERAL REQUIREMENTS ..................................................................................4

          INCORRECT BILLING ............................................................................................4

          RECOMMENDATIONS ...........................................................................................5

          O’CONNOR HOSPITAL COMMENTS ..................................................................5

APPENDIX

          O’CONNOR HOSPITAL COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Requirements for Outpatient Claims

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains detail regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. 1

Selected Drugs

The drugs we reviewed in this audit were doxorubicin hydrochloride (HCl) liposome, rituximab,
pemetrexed, cetuximab, and epoetin alfa.

Doxorubicin Hydrochloride Liposome

Doxorubicin HCl liposome is an injectable drug used to treat metastatic ovarian cancer and
AIDS-related Kaposi’s sarcoma. Medicare requires providers to bill one service unit for each
10-milligram injection of doxorubicin HCl liposome. The HCPCS code for this drug is J9001
and is described as “Injection, doxorubicin hydrochloride, all lipid formulations,
10 [milligrams].”

Rituximab

Rituximab is an injectable drug used to treat non-Hodgkin’s lymphoma, chronic lymphocytic
leukemia, and symptoms of adult rheumatoid arthritis. Medicare requires providers to bill one
service unit for each 100-milligram injection of rituximab. The HCPCS code for this drug is
J9310 and is described as “Injection, rituximab, 100 [milligrams].”

Pemetrexed

Pemetrexed is an injectable drug used to treat malignant mesothelioma and certain types of
non-small cell lung cancer. Medicare requires providers to bill one service unit for each
10-milligram injection of pemetrexed. The HCPCS code for this drug is J9305 and is described
as “Injection, pemetrexed, 10 [milligrams].”


1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                        1
Cetuximab

Cetuximab is an injectable drug used to treat cancers of the colon and rectum. Medicare requires
providers to bill one service unit for each 10-milligram injection of cetuximab. The HCPCS
code for this drug is J9055 and is described as “Injection, cetuximab, 10 [milligrams].”

Epoetin Alfa

Epoetin alfa is an injectable drug used to treat anemia. Medicare requires providers to bill one
service unit for each 1,000 units of epoetin alfa. The HCPCS code for this drug is J0885 and is
described as “Injection, epoetin alfa, for non-esrd [end-stage renal disease] use), 1000 units.”

O’Connor Hospital

O’Connor Hospital (the Hospital) is an acute-care hospital located in San Jose, California. The
Hospital’s claims are processed and paid by Palmetto GBA, LLC (Palmetto), the Medicare
administrative contractor.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital billed Medicare for injections of selected
drugs in accordance with Federal requirements.

Scope

We reviewed $63,405 in Medicare payments to the Hospital for 11 line items that we
judgmentally selected as potentially at risk for billing errors during our audit period
(January 1, 2008, through April 30, 2011). These line items consisted of:

       •   five line items for doxorubicin HCl liposome totaling $25,728,

       •   two line items for rituximab totaling $21,226,

       •   one line item for pemetrexed totaling $8,351,

       •   one line item for cetuximab totaling $6,309, and

       •   two line items for epoetin alfa totaling $1,791. 2

We identified these payments through data analysis.




2
    For the two line items for epoetin alfa, the Hospital billed Medicare in accordance with Federal requirements.


                                                            2
We did not review the Hospital’s internal controls applicable to the 11 line items because our
objective did not require an understanding of controls over the submission of claims. Our review
allowed us to establish reasonable assurance of the authenticity and accuracy of the data obtained
from the National Claims History file for our audit period, but we did not assess the
completeness of the file.

We conducted our audit from May 2011 to February 2012. Our fieldwork included contacting
the Hospital, located in San Jose, California.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   used CMS’s National Claims History file to identify paid Medicare claims for
       doxorubicin HCl liposome, rituximab, pemetrexed, cetuximab, and epoetin alfa;

   •   used computer matching, data mining, and analysis techniques to identify line items
       potentially at risk for noncompliance with Medicare billing requirements;

   •   identified 11 line items totaling $63,405 that Medicare paid to the Hospital;

   •   contacted the Hospital to determine whether the information conveyed in the selected line
       items was correct and, if not, why the information was incorrect;

   •   reviewed documentation that the Hospital furnished to verify whether each selected line
       item was billed correctly;

   •   calculated overpayments using corrected payment information processed by Palmetto;
       and

   •   discussed the results of our review with the Hospital.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                3
                          FINDINGS AND RECOMMENDATIONS

For 9 of the 11 line items reviewed, the Hospital did not bill Medicare in accordance with
Federal requirements:

   •   For five line items, the Hospital used the incorrect HCPCS code.

   •   For four line items, the Hospital billed the incorrect number of units of service.

As a result, the Hospital received overpayments totaling $46,355. The Hospital attributed the
overpayments to billing system and clerical errors.

FEDERAL REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes.

Section 1833(e) of the Act states: “No payment shall be made to any provider of services …
unless there has been furnished such information as may be necessary in order to determine the
amounts due such provider … for the period with respect to which the amounts are being
paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 4,
section 20.4, states: “The definition of service units … is the number of times the service or
procedure being reported was performed.”

The Manual, chapter 17, section 90.2.A, states: “It is … of great importance that hospitals
billing for [drugs] make certain that the reported units of service of the reported HCPCS code are
consistent with the quantity of a drug … that was used in the care of the patient.” If the provider
is billing for a drug, according to chapter 17, section 70, of the Manual, “[w]here HCPCS is
required, units are entered in multiples of the units shown in the HCPCS narrative description.
For example, if the description for the code is 50 mg, and 200 mg are provided, units are shown
as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

INCORRECT BILLING

For the five line items for doxorubicin HCl liposome, the Hospital billed Medicare using the
HCPCS code for the administration of doxorubicin HCl liposome rather than using the HCPCS
code for the administration of doxorubicin HCl, the drug actually administered. The incorrect
billing resulted in overpayments totaling $25,728.




                                                 4
For four line items reviewed, the Hospital billed Medicare for the incorrect number of units of
service:

   •   For the two line items for rituximab, the Hospital billed the incorrect number of units of
       service. Rather than billing 10 service units, the Hospital billed 20 service units. The
       incorrect billing resulted in overpayments totaling $11,653.

   •   For the one line item for pemetrexed, the Hospital billed the incorrect number of units of
       service. Rather than billing 100 service units, the Hospital billed 200 service units. The
       incorrect billing resulted in an overpayment of $4,617.

   •   For the one line item for cetuximab, the Hospital billed the incorrect number of units of
       service. Rather than billing 50 service units, the Hospital billed 150 service units. The
       incorrect billing resulted in an overpayment of $4,357.

In total, the Hospital received overpayments of $46,355. The Hospital attributed the
overpayments to billing system and clerical errors.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare administrative contractor $46,355 in identified overpayments and

   •   ensure compliance with Medicare billing requirements.

O’CONNOR HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our findings and provided
information on actions that it had taken to address our recommendations. The Hospital’s
comments are included in their entirety as the Appendix.




                                                5
APPENDIX
                                                                                                   Page 10f2


                  APPENDIX: O'CONNOR HOSPITAL COMMENTS 




fa'
\!!I O'Connor Hospital
        2105 Forest Avenue 

        SanJose, California 95128-1471 

        (408) 947-2500 

        www.oconnorhospital.org 





           March 6, 2012


           Ms. Lori A. Ahlstrand
           Regional Inspector General for Audit Services
           Department of Health and Human Services
           Office of Audit Services, Region IX
           90 1=h Street, Suite 3-650
           San Francisco, CA 94103

           Re: Report Number A-09-12-02010

           Dear Ms. Ahlstrand,

           This letter provides comments on behalf of O'Connor Hospital to the draft report
           entitled "Review ofMedicare Outpatient Billing for Selected Drugs at O'Connor
           Hospital". O'Connor Hospital appreciates the opportunity to respond to the Draft
           Report.
                                                                                      tI
           As noted in the Draft Report, the Office of Inspector General (the "OIG   reviewed
                                                                                           )

           $63,405 in Medicare payments for ll1ine items for the following drugs: Doxorubicin
           Hydrochloride Liposome; Rituximab; Pemetrexed; Cetuximab; & Epoetin AHa.
           O'Connor Hospital concurs with the OIG's findings that of the 11 line items sampled,
           9 had billing errors that resulted in overpayments totaling $46,355. The OIG's
           recommendations and the corrective action taken are set forth below:

                1. 	   The OIG recommends that O'Connor Hospital refund to the Medicare
                       contractor $46,355 in identified overpayments.
                       Over the period of July 2011- September 2011, O'Connor Hospital refunded
                       the $46,355 identified by the OIG to Palmetto GBA.

                2. 	 The   OIG recommends that O'Connor Hospital ensure compliance with
                       Medicare billing requirements.
                       To address the issues raised by the OIG's findings, O'Connor Hospital has
                       implemented several measures, including the following:

                          • 	 The Revenue Integrity Department conducted a comprehensive
                              Pharmacy Chargemaster review to ensure that all drug charges and
                              corresponding Hepc code and billing multiplier assignments were
                              accurate .


 .11­
 ..U-   Member of Daughters of Charity Health System
                                                                                        Page 2 of2




                                                                  O'Connor Hospital
                                                                              Page 2
                                                        Report Number A-09-12-02010

           • 	 The Pharmacy Department implemented a revised process to identify
               and review all Pharmacy charges for the Outpatient Infusion Center.
               The Pharmacy Department is ensuring that there are no duplicated or
               erroneous Pharmacy charges.

           • 	 The Patient Financial Services Department activated the Palmetto
               Maximum Allowable Unit edits for many HCPCS drugs &biologicals.
               These billing edits are reviewed on every Medicare Outpatient claim to
               ensure proper billing to the Medicare Program.

O'Connor Hospital takes its compliance obligations very seriously and appreciates
the assistance and guidance provided by OIG staff in the review process. We will
continue to monitor and audit claims, and institute additional controls and
procedures, in the above areas as necessary. Please contact myself or Pamela
Brotherton-Sedano, 1\1S, RN, Corporate Responsibility Officer if I can be of further
assistance.

Very truly yours,




James Dover, FACHE
President and Chief Executive Officer


cc: 	   Adam Cramer, CPA, MSA
        Auditor
        U.S. Department of Health and Human Services 

        Office of Inspector General I Office of Audit Services 


        Pamela Brotherton-Sedano, MS, RN 

        VP, Patient Safety/Corporate Responsibility Officer 

        O'Connor Hospital 

